 Criminal
 I nvestigative
 Policy &
 Oversight
      Review of the Implementation of DoD Instruction 5505.7,
      “Titling and Indexing Subjects of Criminal Investigations
                    in the Department of Defense”
         Phase I – The Defense Criminal Investigative Organizations
Report Number CIPO2000P002                                        July 7, 2000



              Office of the Inspector General
                  Department of Defense
                        Additional Information and Copies
This report was prepared by the Policy and Programs Directorate, Office of the Deputy Assistant Inspector
General for Criminal Investigative Policy and Oversight, Office of the Inspector General, Department of
Defense. If you have questions on this evaluation or want additional copies of the report, contact Mr. Bruce
Drucker, Program Director, at (703) 604-8700 (DSN 664-8700) or Mr. Frank Albright, Project Manager, at
(703) 604-8768 (DSN 664-8768).




      Acronyms Used in This Report

      ABCMR           Army Board for the Correction of Military Records
      AFOSI           Air Force Office of Special Investigations
      AF              Air Force
      BOI             Board on Investigations
      CAF             Consolidated Adjudication Facility
      CID             Shortened version of “USACIDC”
      CIPO            Criminal Investigative Policy and Oversight (Office of the IG, DoD)
      DAB             Advisory Board on the Investigative Capability of the Department of Defense
      DCII            Defense Clearance and Investigations Index
      DCIO            Defense Criminal Investigative Organization
      DCIS            Defense Criminal Investigative Service
      DoD             Department of Defense
      DSS             Defense Security Service
      FBI             Federal Bureau of Investigation
      HASC            House Armed Services Committee
      IG              Inspector General
      JA              Judge Advocate
      MCIO            Military Criminal Investigative Organization
      NAPA            National Academy of Public Administration
      NCIC            National Crime Information Center
      NCIS            Naval Criminal Investigative Service
      OIG             Office of Inspector General
      OSI             Shortened version of “AFOSI”
      PID             Personal Identifying Data
      ROI             Report of Investigation
      USACIDC         United States Army Criminal Investigation Command
      USACRC          United States Army Crime Records Center
MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (COMMAND,
                 CONTROL, COMMUNICATIONS AND INTELLIGENCE)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTORS OF THE DEFENSE AGENCIES
               INSPECTOR GENERAL, DEPARTMENT OF THE NAVY
               DIRECTOR, ADMINISTRATION AND MANAGEMENT
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on the Review of the Implementation of DoD Instruction 5505.7, “Titling
         and Indexing of Subjects of Criminal Investigations in the Department of Defense,”
         Phase I – The Defense Criminal Investigative Organizations (Project No. 9850019I)

       This report is provided for your review and comment. Your comments on the draft report
were considered in preparing the final report and are included in the final report as Appendix I.
Our responses to your comments are also discussed.

       We request your comments on the final report not later than July 28, 2000. We also
request your prompt action on our recommendations. Send your comments to the Office of the
Deputy Assistant Inspector General for Criminal Investigative Policy and Oversight, Room 725,
400 Army Navy Drive, Arlington, Virginia 22202-2884. Should you have any questions, please
contact Mr. Bruce Drucker, Policy and Programs Director, at (703) 604-8700 (DSN 664-8700) or
Mr. Frank Albright, Project Manager, at (703) 604-8768 (DSN 664-8768).

        We appreciate the courtesies extended to our evaluation staff throughout this evaluation.
The evaluation team members are listed inside the back cover. See Appendix H for the report
distribution.




                                     Charles W. Beardall
                              Deputy Assistant Inspector General
                          Criminal Investigative Policy and Oversight

cc:
Director, Defense Criminal Investigative Service
Commander, United States Army Criminal Investigation Command
Director, Naval Criminal Investigative Service
Commander, Air Force Office of Special Investigations
     Review of the Implementation of DoD Instruction 5505.7,
   “Titling and Indexing of Subjects of Criminal Investigations
                  in the Department of Defense”
          Phase I – The Defense Criminal Investigative Organizations

                               Table of Contents
EXECUTIVE SUMMARY                                                                    iii

Part I - Introduction
          Introduction                                                                1
          Background                                                                  1
              Prior Reviews                                                           2
          Objectives, Scope, and Methodology                                          2

Part II - EVALUATION RESULTS AND RECOMMENDATIONS

         A. Explanation of terms                                                      4
                Titling                                                               4
                Indexing                                                              4
         B. Extent to which all criminal investigations are indexed                   5
                Recommendations                                                       6
                Management Comments and Evaluation Response                           6
         C. Application of the “credible information” standard                        7
         D. Titling as operational versus legal decision                              8
         E. Use of criminal investigative data resulting from titling and indexing
            as a basis for judicial or adverse administrative action                  8
         F. Categories of individuals indexed: subjects, victim, and incidentals      9
                Recommendation                                                        9
                Management Comments and Evaluation Response                          10
         G. Indexing upon case initiation, or when subjects become known             10
                Recommendations                                                      12
                Management Comments and Evaluation Response                          12
         H. Basis for removing names from the DCII                                   13
         I. Evaluation results pertinent to DAB findings and recommendations         17
         J. Evaluation results pertinent to NAPA findings and recommendations        17

APPENDIX A -    DoD Instruction 5505.7
APPENDIX B -    IG, DoD Clarifying Memorandum
APPENDIX C -    Excerpts from IG, DoD Review – February 1987
APPENDIX D -    Excerpts from IG, DoD Review – May 1991
APPENDIX E -    Summary of Defense Advisory Board Findings and
                Recommendations



                                                                                           i
APPENDIX F - Summary of National Academy of Public Administration Findings
             and Recommendations
APPENDIX G - Departmental and Agency Policies Reviewed
APPENDIX H - Report Distribution
APPENDIX I - Management Comments: Army, Navy, Air Force, Defense
             Criminal Investigative Service




                                                                             ii
    Review of the Implementation of DoD Instruction 5505.7,
“Titling and Indexing of Subjects of Criminal Investigations in
                 the Department of Defense”
 Phase I – The Defense Criminal Investigative Organizations

                                       Executive Summary
         Introduction. The Inspector General, Department of Defense, published DoD
Instruction 5505.7, “Titling and Indexing of Subjects of Criminal Investigations in the
Department of Defense,” in May 1992. DoD Instruction 5505.7 establishes DoD policy
for “titling,” i.e., placing the names and other identifying data of subjects (and, to a lesser
degree, victims and other significant incidentals) in the title block portion of investigative
reports, and “indexing,” i.e., entering the same data into the Defense Clearance and
Investigations Index (DCII). The purpose of titling and indexing is to establish an
administrative system for the retrieval of criminal investigative files by subject name or
other personal identifying data. This review was undertaken to meet the Inspector
General, Department of Defense, standing need to review existing policy, and to address
issues raised by both the Advisory Board on the Investigative Capability of the
Department of Defense (DAB) and a congressionally authorized review by the National
Academy of Public Administration (NAPA).

        Background. Prior to DoD Instruction 5505.7, there was no common standard
among the Defense Criminal Investigative Organizations (DCIOs)1 for placing the name
of an investigated subject in the title block of a criminal investigative report of
investigation or in the DCII. The U.S. Army Criminal Investigation Command
(USACIDC) titled and indexed subjects upon receipt of a probable cause opinion from a
judge advocate. The remaining DCIOs used an operational standard equivalent to
credible information to believe a crime was committed. DoD Instruction 5505.7
established the credible information standard in the DoD, and included other
requirements such as titling and indexing at the start of an investigation or when a subject
is identified.

         Review Results. With minor exceptions, DoD Instruction 5505.7 appears to be
understood and properly applied by the DCIOs. We found no basis for the
recommendations of the DAB and NAPA, but do recommend other actions to improve
the titling and indexing process. Specifically, we found that:

        •   Nearly all criminal investigations are duly titled and indexed by the DCIOs,
            with the exceptions of some criminal investigations of Air Force Office of


1
  The DCIOs are comprised of the United States Army Criminal Investigation Command, the Naval
Criminal Investigative Service, the Air Force office of Special Investigations, and the Defense Criminal
Investigative Service.


                                                                                                     iii
             Special Investigations (AFOSI) personnel, and investigations conducted by
             Air Force police investigators.

         •   DoD Instruction 5505.7’s credible information standard is understood and has
             been properly applied.

         •   Titling is properly applied as an operational rather than a legal decision.

         •   Concerning the DCIOs, the criminal investigative data in report title blocks
             and in the DCII has not been improperly used as the sole basis for judicial or
             adverse administrative action.

         •   Subjects and victims of investigations are routinely indexed; incidentals and
             impersonal titles are not.2

         •   Nearly all indexing properly occurs on case initiation; however, several of the
             DCIOs have delayed indexing based on operational security concerns. AFOSI
             does not index subjects of its internal criminal investigations until the
             employee leaves the organization.

         •   Privacy Act or similar procedures for the amendment of records have been
             used by subjects to appeal titling and indexing decisions. These procedures
             appear to be sufficient.

      Summary of Recommendations. We recommended the following actions to
improve titling and indexing in the DoD:

         •   The Commander, Air Force Office of Special Investigations, institute policy
             to limit matters indexed in the DCII to substantive investigations; implement
             procedures to ensure subjects of Security Forces criminal investigations (per
             definitions in DoD Instruction 5505.7) are indexed in the DCII as required by
             Air Force Instruction 71-101; and take action to ensure that when AFOSI
             personnel are subjects of criminal investigations, they are indexed in the DCII
             according to the DoD Instruction.

         •   The Office of the Deputy Assistant Inspector General for Criminal
             Investigative Policy and Oversight (CIPO), Inspector General, DoD,
             coordinate with the Defense Security Service regarding the possibility of
             expanding the number of fields available in the Defense Clearance and
             Investigations Index to adequately identify business subjects.



2
  Incidentals are individuals who, while not believed to be subjects or victims at the time, appear to have
played a significant enough role in a criminal scenario that retrieval of the file by the individual’s name is
deemed to be valuable. Impersonal titles are used when personal titles are not yet known, such as,
“Andrews Air Force Base, Maryland, Theft of Computer Equipment.”


                                                                                                           iv
       •   CIPO amend DoD Instruction 5505.7 to allow for delayed indexing in the
           DCII in limited cases where such indexing may reasonably be anticipated to
           risk compromise of the criminal investigation.

       •   The Commanders of the Army Criminal Investigation Command and Air
           Force Office of Special Investigations, and the Director, Naval Criminal
           Investigative Service (NCIS), institute written policy addressing authorized
           reasons for delays in indexing. The policy must also address the requirement
           to index and the procedures for the subsequent indexing of subjects of such
           investigations once the reasons for delayed indexing no longer exist.

         Management Comments. We received, through their Service Departments,
comments from the MCIOs to which recommendations were addressed and from the
Defense Criminal Investigative Service (DCIS) (Appendix I). DCIS, USACIDC and
NCIS concurred with all recommendations. AFOSI concurred with five of the six
recommendations. AFOSI did not concur with our recommendation that DCII entries be
limited to actual “investigations” and not include AFOSI “zero” files that do not
represent substantive investigations. While we commend the recent AFOSI initiative to
remove from the DCII those zero files not reaching the credible information standard, we
still conclude that zero files should not be included in an index of investigations. See
Part II, Section B, for the complete text addressing this recommendation.




                                                                                          v
      Review of the Implementation of DoD Instruction 5505.7,
“Titling and Indexing of Subjects of Criminal Investigations in
                 the Department of Defense”
 Phase I – The Defense Criminal Investigative Organizations

                                      Part I - Introduction
Introduction
        In May 1992, the Inspector General (IG), DoD, published DoD Instruction
5505.7, “Titling and Indexing of Subjects of Criminal Investigations in the Department of
Defense” (hereinafter the Instruction) (see Appendix A). The Instruction outlines DoD
policy for placing subject names and personal identifying data (PID) in the title block
sections of criminal investigative reports and placing them in the Defense Clearance and
Investigations Index (DCII).3 Since then, aspects of the policy have been reviewed by the
Advisory Board on the Investigative Capability of the Department of Defense (DAB)4
and the National Academy of Public Administration (NAPA).5 This review was
undertaken to address issues raised by those organizations and to meet our standing need
to periodically review existing policy.

Background
         Prior to the Instruction, the Defense Criminal Investigative Organizations
(DCIOs)6 accomplished titling and indexing using their own policies and procedures. All
were similar, with the exception of USACIDC that used a probable cause standard for
titling and subsequent DCII indexing. As such, subjects of USACIDC cases were neither
titled nor indexed until a judge advocate (JA) opined that there was probable cause to
believe the subject had committed a crime. If, following completion of an investigation
wherein a subject was previously titled and indexed, a JA determined that probable cause
to believe the subject committed a crime no longer existed, the subject’s PID was
removed from the title block of the report, and the DCII record was expunged. That
approach treated the DCII as a criminal history database for the purpose of identifying
likely criminals, rather than for its intended function as an administrative database for the
purpose of identifying the existence of investigative files. The remaining DCIOs titled
and indexed subjects using essentially the same principles appearing today in the DoD

3
  The DCII is a database maintained by the Defense Security Service (DSS) and used to pool information
originated by DoD and other Federal agencies into a central index of clearance and investigative
information.
4
  See Appendix E.
5
  See Appendix F.
6
  U.S. Army Criminal Investigation Command (USACIDC), Naval Criminal Investigative Service (NCIS),
Air Force Office of Special Investigations (AFOSI), and the Defense Criminal Investigative Service
(DCIS).


                                                                                                    1
instruction; that is, titling decisions were made by investigators using a standard roughly
equivalent to credible information.

         Prior Reviews
        The IG, DoD, conducted two prior reviews: one in February 1987 that primarily
addressed the standardization of DCII use among the DCIOs (Appendix C), and one in
May 1991 that addressed titling and highlighted the need for a uniform DoD criminal
investigative policy in this area (Appendix D). During 1993 and 1994, the DAB
reviewed titling and indexing among many other investigative functions in its broad
charter (see Appendix E for a summary of the DAB findings and recommendations
affecting titling and indexing). Finally, NAPA commented on titling and indexing in its
review of Military Criminal Investigative Organization (MCIO)7 policies and procedures
in sex crimes investigations (see Appendix F for a summary of NAPA findings and
recommendations affecting titling and indexing).


Objectives, Scope, and Methodology
        The objectives of this review were to assess compliance with the Instruction, and
to respond to the findings of both the DAB and NAPA, with due regard to prior DoD
formal responses to those organizations. This report highlights changes to the
Instruction, either proposed by DCIO representatives or identified by the review team
during fieldwork.

        Our assessment of compliance with the Instruction focused on the major tenets of
the Instruction and was intended to determine:

         1. The extent to which all criminal investigations in the DoD are indexed.
         2. Whether credible information is the common standard applied.
         3. Whether titling decisions are made as operational rather than legal decisions.
         4. Whether there have been instances wherein the fact that an individual was
            titled or indexed was improperly used as a basis for judicial or adverse
            administrative action.
         5. The categories of individuals indexed (e.g., subjects, victims, incidentals,
            legal entities, and names of projects or descriptions of incidents where
            subjects are not known).
         6. Whether indexing of an investigation is accomplished upon case initiation,
            and, if subjects who are identified are promptly indexed once they become
            known.
         7. The basis for instances in which names have been removed from the DCII.

       Phases I and II. This evaluation is structured in two phases. This report
addresses Phase I, evaluating DCIO compliance with the provisions of the Instruction.

7
    USACIDC, NCIS, and AFOSI


                                                                                              2
We examined DCIO written policies and interviewed headquarters personnel,
interviewed intermediate supervisors, and met with field agents. We also solicited
recommendations for changes to the policy. Phase II, which will be addressed in a
separate report, will address implementation of the Instruction by agencies outside of the
traditional DCIO community. The Instruction’s coverage is not limited to the DCIOs; it
addresses the titling and indexing of subjects of all criminal investigations. We will also
evaluate the uses of DCII criminal investigative information by anyone holding a DCII
password.




                                                                                          3
  Review of the Implementation of DoD Instruction 5505.7,
“Titling and Indexing of Subjects of Criminal Investigations in
                 the Department of Defense”
Phase I – The Defense Criminal Investigative Organizations


           Part II - Results of Evaluation and Recommendations

A. Explanation of Terms

        Titling. DoD Instruction 5505.7 (Appendix A) defines titling as the act of
“placing the name(s) of a person(s) or corporation(s), or other legal entity,
organization(s), or occurrences(s) in the subject block for a criminal investigation.” A
subject is defined as “a person, corporation, legal entity, or organization about which
credible information exists that would cause a reasonable person to suspect that such
subject may have committed a criminal offense, or to otherwise become the object of a
criminal investigation.” Criminal investigations refers to “investigations of possible
criminal violations of the United States Code, the Uniform Code of Military Justice, or,
when appropriate, State or local statutes or ordinances, or foreign law.” The basis, or
standard, for titling is credible information, which the Instruction defines as:

                information disclosed or obtained by an investigator that,
                considering the source and nature of the information and
                the totality of the circumstances, is sufficiently believable to
                indicate criminal activity has occurred and would cause a
                reasonable investigator under similar circumstances to
                pursue further the facts of the case to determine whether a
                criminal act occurred or may have occurred.

        The Instruction adds that titling is an operational rather than a legal decision, and
that the final responsibility for the decision to title an individual or entity rests with
investigative officials designated by the DoD Components.8

        Indexing. Indexing, as it applies to criminal investigations covered by the
Instruction, is the recording of information so that an orderly retrieval process may be
used to identify and access a particular file. Investigative agencies in DoD accomplish
indexing by providing subject identifying data to the Defense Security Service (DSS) for
input to the DCII database. While DSS manages the database, criminal investigative
information stored therein remains a record of, and is the responsibility of, the
8
  DoD components are identified collectively as the Office of the Secretary of Defense, the Military
Departments, The Chairman of the Joint Chiefs of Staff, the Unified and Specified Commands, the
Inspector General of the Department of Defense, the Defense Agencies, and the DoD Field Activities.


                                                                                                  4
contributing agency. Criminal investigative data fields residing in the DCII include:
agency and agency file number, name, alias(es), Social Security number, date of birth,
place of birth, category of the indexed person or entity (subject or victim), year the entry
was indexed, and the file retention period. The DCII, when queried, merely identifies
the existence of a file and the agency where the file is located. Investigative findings and
dispositions are not entered into the DCII, but must be separately obtained following
proper procedures to request such information from the contributing agency (i.e., the
appropriate DCIO). As its name implies, the DCII is also a repository for DoD security
clearance data, indexed by name and other personal identifying data and agency file
number and location.

         The Instruction further states that “the primary purpose of titling and indexing
subjects of criminal investigations is to ensure that information in a report of
investigation can be retrieved at some future date for law enforcement and security
purposes.” The Instruction declares that “the act of titling and indexing shall not, in and
of itself, connote any degree of guilt or innocence.” This is to differentiate the DCII from
criminal history indices such as the National Crime Information Center (NCIC) operated
by the Federal Bureau of Investigation (FBI). The Instruction also proscribes the
imposition of judicial or adverse administrative action based solely on the fact that a
person has been titled in an investigation.


B. Extent to which all criminal investigations are indexed
        The Instruction does not allow for exceptions. It states that, “The fact that an
investigation has started and the identity of a subject when known shall be reported by
the investigative agency to the DCII for indexing.” Each DCIO has established
implementing procedures calling for the indexing of all investigations. In the AFOSI,
indexing has become an automated process. Once authorized field commanders, agents-
in-charge, or their designees approve cases for initiation in AFOSI’s internal case
information system, an entry is automatically made in the DCII. In the USACIDC,
NCIS, and DCIS, DCII data are entered manually by headquarters personnel following
receipt of case initiation data from field locations. Except as explained below, all DCIO
substantive criminal cases are indexed in the DCII.

        Each DCIO uses identification categories that describe matters falling short of the
definition of a criminal investigation.9 Such matters are variously identified as
preliminary inquiries, zero files, operations reports, collections, or information reports.
These matters differ from criminal “investigations” in that most merely document an
allegation or receipt of information from some source with little or no actual investigative
follow-up. AFOSI, NCIS, and DCIS formerly indexed the subjects of these matters in
the DCII. Today, with the development of each agency’s own management information
system, the agencies in most cases no longer index such data. AFOSI is the last of the
9
  The Instruction defines criminal investigations as “investigations of possible criminal violations of the
United States Code, the Uniform Code of Military Justice, or when appropriate, State or local statutes or
ordinances or foreign law.”


                                                                                                         5
DCIOs to restrict such indexing. During this evaluation, AFOSI changed its policy from
indexing all zero files to indexing only those zero files where the field commander or
agent-in-charge certifies that the credible information standard has been attained.
Additionally, AFOSI had undertaken a large project to delete all zero files already
indexed in the DCII that fail to meet the credible information standard. While this effort
is commendable, it falls short of full compliance with the Instruction, which calls for the
indexing of criminal “investigations.” Even if AFOSI zero file matters meet the credible
information standard, they do not, by definition, constitute substantive investigations
since little or no investigative follow-up has been undertaken.

        Regarding military police investigative reports, the Army and Navy have
centralized the storage of police (non-DCIO) investigative reports with USACIDC and
NCIS files. As such, Army and Navy police organizations send police investigative
reports to the USACIDC and NCIS file repositories where they are not only filed, but
also indexed in the DCII. In the Air Force, however, Air Force Instruction 71-101 calls
for Security Forces investigative reports to be provided to AFOSI detachments at the
local level where AFOSI accomplishes DCII indexing. Interviews of AFOSI
representatives at the headquarters and field levels disclosed that police investigative
reports were neither being provided to AFOSI detachments nor being indexed. Further,
one detachment commander commented that he was not staffed to accept and enter all
Security Forces subject data into the DCII.


                                      Recommendations
        Recommendation 1. The Commander, Air Force Office of Special
Investigations, institute policy to limit AFOSI matters indexed in the Defense Clearance
and Investigations Index to substantive investigations.

                 Management Comments and Evaluation Response
        The Air Force did not concur (see Appendix I for the complete response). Their
response indicated that, in addition to substantive investigations, AFOSI has used the
DCII as a file retrieval system for “other investigative files of importance such as zero
files.” Such other files include allegations not warranting a criminal investigation,
criminal intelligence, and matters that were referred to other investigative agencies
having investigative responsibility over the matters reported. As indicated above, the Air
Force response related that in May 1999, AFOSI published policy prohibiting the
indexing of zero files not meeting the credible information standard stated in DoD
Instruction 5505.7. Over 5,000 zero files previously indexed and not reaching the
credible information standard were subsequently removed, and more are currently under
review. AFOSI decided to retain in the DCII, however, zero files meeting the credible
information standard as determined by the field commander or agent-in-charge. AFOSI
based its decision to retain these files on the premise that such information would be
beneficial to other federal agency users of the DCII who require such information for
suitability and security clearance decisions.


                                                                                           6
        We understand the AFOSI need to retrieve zero files for intelligence value, but
disagree that the DCII is the proper repository. DoD Instruction 5505.7 mandates the
indexing of subjects of actual investigations. AFOSI zero files, by definition, are not
fully investigated matters; they are allegations with little or no investigative follow-up to
further corroborate the initial information. AFOSI began indexing zero files years before
it developed its own automated management information system. That system has now
been developed and is capable of identifying zero files, by subject name, if needed for
intelligence purposes. No other DoD investigative agency uses the DCII as a repository
for raw intelligence, and DoD Instruction 5505.7 does not allow for it. Further, there is
no need to index a complaint that was merely referred to another agency. The agency
receiving the referral would index the investigation and maintain the investigative file.
We also see no reason to index matters “not warranting a criminal investigation.” We ask
the Air Force and AFOSI to reconsider their position on the indexing of zero matters in
light of the definitions and requirements of DoD Instruction 5505.7, the capability to
identify such files through AFOSI’s internal management information system, and the
limited value of such incomplete data to DCII users or customers.

        Recommendation 2. The Commander, Air Force Office of Special
Investigations, implement procedures to ensure subjects of Security Forces criminal
investigations (per definitions in DoD Instruction 5505.7) are indexed in the Defense
Clearance and Investigations Index as required by Air Force Instruction 71-101.

                 Management Comments and Evaluation Response
        The Air Force generally concurred with our recommendation. They pointed out
that while policy has been in place, a routine process for Security Forces to provide
reports to AFOSI has been lacking. They proposed revising Air Force Instruction
31-206, Security Police Investigations, and working with the Air Force Security Forces
Agency to create an automated process to transfer DCII reportable information to AFOSI
for indexing. We consider this approach responsive to our recommendation. However,
we suggest the consideration of other less challenging approaches should it become
apparent that the technological solution will result in lengthy delays.


C. Application of the credible information standard
        Each MCIO has written policy reiterating the Instruction’s credible information
standard for titling. DCIS references the Instruction rather than restating the language in
the DCIS Special Agent’s Manual. Despite reiterating the Instruction’s language, we
noted several USACIDC case initiations generated during this evaluation referred to
“probable cause” as criteria for opening a case. There is no basis in current USACIDC
policy for such a requirement. One USACIDC headquarters representative believed that
the apparent confusion might be due to either lingering recollection of pre-1992
USACIDC policy when probable cause was the titling and indexing standard, or the
simultaneous USACIDC requirement to annotate each report of investigation (ROI) as


                                                                                              7
either “founded” or “unfounded.” The founded or unfounded label is added to an ROI
based on a JA probable cause opinion after reviewing, at the conclusion of an
investigation, all of the evidence collected.

        During our interviews, DCIO agents at the headquarters and field levels
demonstrated an adequate grasp of the purpose of titling and indexing as a means of
providing a system to retrieve investigative files. They also understood and applied the
credible information standard. They could differentiate between a probable cause
standard for arrest or for data entry into a law enforcement database and the titling
standard that is simply the possession of information believed to be sufficiently reliable
to cause an investigation to be initiated.


D. Titling as an operational versus legal decision
         Prior to the issuance of DoD Instruction 5505.7, USACIDC used probable cause
as its standard for titling and indexing subjects of criminal investigations. Probable cause
opinions were sought from JAs and reported in case initiation documents and in
USACIDC ROIs. The Instruction established a different standard, credible information,
as it focused on the threshold of information to support the administrative decision to
open an investigation rather than a judicial standard of evidence against a crime suspect.
The remaining DCIOs were using credible information as an operational standard without
a JA opinion.

        During this evaluation we discovered that titling decisions were indeed made by
DCIO investigators and supervisors based on investigative criteria. Generally, agents
accomplished investigative leads, and then drafted case initiation documents that were
later reviewed, modified as necessary, and approved by a supervisory agent or agent-in-
charge. The decision-making responsibility was properly confined to the investigative
agency and not deferred to other officials.


E. Use of criminal investigative data resulting from titling and indexing
as a basis for judicial or adverse administrative action
        The essence of titling and subsequent indexing in the DCII is to create an
administrative index of investigations, searchable by subject name or other identifying
data. Titling and indexing do not create a criminal history database; no judicial process
involving the subject has even occurred at the time of titling and indexing. DCII serves
only as a tool to locate investigative files. To help ensure that the existence of one’s
name in the title block of a criminal investigative report (which is then indexed in the
DCII) is not improperly interpreted as derogatory information, the Instruction proscribes
taking adverse action against someone solely on the basis of a titling action.

       Information obtained during interviews conducted as part of this review
confirmed that the Instruction was being followed. All agents were aware of the


                                                                                             8
administrative nature of titling and indexing in the DCII. Agents used the DCII as an
investigative tool to determine the existence of additional files concerning investigated
subjects. Field agents indicated they did not provide DCII information to outside
officials (who might be in a position to take the adverse action proscribed by the
Instruction). None were aware of any instance in which a military commander or civilian
supervisor took action against the subject of an investigation based solely on a report title
or DCII entry.

        The MCIOs acknowledged the use of the DCII as a tool to locate files for review
by outside requesters for administrative purposes such as general officer promotions,
Army recruiting and drill instructor duty selection, background investigations for security
clearances, etc. In each case, however, the actual investigative file is retrieved, reviewed,
and either provided in its entirety or summarized. Since decision-makers are not
provided the DCII information, but rather the underlying substantive investigative
information, their decisions would not be based on the existence of titling or indexing in
the DCII alone. In the Army, USACIDC releases files for such purposes only when the
allegations investigated were determined to be founded as marked on the ROI.

       The treatment of DCII criminal investigative data by non-DCIO individuals with
DCII access will be addressed in Phase II of this review.


F. Categories of individuals indexed: subjects, victims, and incidentals
        During the review, we observed that subjects (individuals and business entities)
were always indexed as were most victims of personal crimes. Incidentals and
impersonal titles were rarely indexed.10 Such practice accomplishes the objective of the
Instruction since the primary focus is the titling and indexing of investigated subjects.

        Several DCIS interviewees said there were too few fields in the DCII to
adequately identify major DoD contractors having multiple divisions or geographically
dispersed operating locations. Merely identifying the name of a major contractor,
without further details such as division, branch, address, etc., was of little use to the
agents since so many DCII entries exist involving such contractors.

                                              Recommendation
               Recommendation 3. The Office of the Deputy Assistant Inspector
General for Criminal Investigative Policy and Oversight, IG, DoD, coordinate with DSS
regarding the possibility of expanding the number of fields available in the DCII to
adequately identify subjects that are business entities.


10
   Incidentals are individuals who, while not believed to be subjects or victims at the time, appear to have
played a significant enough role in a criminal scenario that retrieval of the file by the individual’s name is
deemed to be valuable. Impersonal titles are used when personal titles are not yet known, such as,
“Andrews Air Force Base, Maryland, Theft of Computer Equipment.”


                                                                                                            9
                   Management Comments and Evaluation Response
       The Army, Navy, Air Force, and DCIS concurred with this recommendation. We
will coordinate with DSS by July 31, 2000.


G. Indexing upon case initiation, or when subjects become known
        DoD Instruction 5505.7 states, “The fact that an investigation has started and the
identity of a subject when known shall be reported by the investigative agency to the
DCII for indexing. This reporting shall be made at the start of an investigation….”

         Each DCIO has implementing policies and procedures calling for indexing at the
start of an investigation, and when a subject is identified. We found these procedures
were followed; however, we noted the following exceptions not expressly covered in the
Instruction:

        1. AFOSI and the NCIS do not index espionage investigations until after
such cases are closed. AFOSI policy directs agents not to use their automated case
management information system to initiate counterintelligence investigations, as an
added measure of operational security.11 Since DCII indexing is an automated process in
the AFOSI, initiating sensitive counterintelligence investigations12 outside of the
automated process prevents DCII indexing from occurring. Counterintelligence program
managers at AFOSI headquarters initiate action to manually index counterintelligence
subjects once the cases are closed. The NCIS has a similar policy. Both cite operational
security as the reason indexing is delayed.

        We recognize the need for strict operational security in cases where national
security is the primary focus. We also recognize that other cases, such as some
undercover operations, or cases involving DCII password holders or their coworkers as
subjects, for example, may also dictate the need to delay indexing until operational
security is no longer jeopardized.

        2. AFOSI does not index subjects of internal criminal investigations until or
unless subjects are removed from the AFOSI. While the AFOSI has no written policy
addressing it, the PID of AFOSI employees (agents and support personnel) who are
subjects of AFOSI criminal investigations historically have not been entered into the
DCII unless and until the subject is removed from employment with the AFOSI. If a
criminal investigation results in action short of removal from the AFOSI, the case is not
separately indexed in the DCII, but the investigative file is stored within the subject’s
“110” case file.”13 While reference to the 110 case file appears in the DCII (reflecting
the original date the 110 investigation was conducted), in this situation there would be no

11
   See AFOSI Instructions 71-105, and 71-119.
12
   AFOSI case types 27 and 28
13
   Case type used to denote a suitability investigation conducted on each person at the time of the
applicant’s selection for AFOSI duty.


                                                                                                10
entry to separately identify that a new criminal case had been opened. The criminal case
file is not separately visible to DCII users such as personnel security specialists and
investigators, and other criminal investigators.

        We contacted representatives from the Air Force security clearance Consolidated
Adjudication Facility (CAF)14 regarding this policy. They advised that such a practice
would indeed negatively impact their ability to make the most informed decisions in
granting security clearances to AFOSI personnel. 15 They advised that, in assessing an
individual’s qualification for a security clearance, clearance adjudicators focus on
investigative and other activity pertaining to an individual since their last clearance
adjudication. They related that to effectively mask a criminal investigative file in the
DCII by including it within another file, particularly when the other file could be dated
prior to the individual’s last clearance adjudication, effectively deprives the adjudicator
of information that would highlight the need to retrieve the particular file.

        AFOSI representatives responded that 110 files for AFOSI personnel were
routinely requested and reviewed, regardless of the age of the file, by background
investigators working for, or on behalf of, the DSS. They reasoned, therefore, that such
criminal investigative files were always available for review in the background
investigation and security clearance adjudication process.

        The Air Force group manager at the DSS advised that since 1991, DSS has
retained copies of AFOSI 110 files provided for background investigations. She related
that a personnel security analyst, when determining the scope of a background
investigation involving an AFOSI employee (agent or support), would not request a copy
of a 110 file from the AFOSI if the DSS already had one from a previous request. She
advised that DSS assumed the 110 file copy previously obtained would be current. She
concluded that the AFOSI practice of including criminal case information in a previous
110 file rather than indexing the criminal case separately may have prevented the
consideration of relevant information concerning AFOSI personnel in the security
clearance investigation and adjudication process.

        In assessing the impact of this policy, an AFOSI representative further explained
that any negative consequences to the Government’s security program would be limited
to criminal investigative files concerning AFOSI military members. That is so because
the Office of Personnel Management (OPM), rather than the DSS, has assumed
responsibility (temporarily) for personnel security investigations concerning civilians.
OPM does not rely on retained files, but instead requests from AFOSI all files pertaining
to AFOSI personnel. Also, the AFOSI representative contended that while DSS policy
may dictate that 110 files in its possession are not again requested, in practice they are
often re-requested because the DSS cannot locate the copies of the files.


14
   The acronym “CAF” has various, but similar meanings to include “consolidated” and “central”
adjudication facility. “CCF” has also been used, which represents “central clearance facility.” The Air
Force CAF is responsible for adjudicating clearances for AFOSI personnel.
15
   All AFOSI personnel are required to possess a Top Secret security clearance


                                                                                                    11
        After encountering the AFOSI policy with regard to indexing the subjects of
internal criminal investigations, the other DCIOs were queried. All reported that subjects
of internal criminal investigations were indexed in the DCII just as any other subject.

         3. USACIDC does not index subjects of cases wherein special caveats are
placed on reports. USACIDC policy allows supervisors to restrict or delay distribution
of investigative reports.16 The reports are annotated “restricted to CID channels only.”
All subsequent reports must contain the restrictive statement until the distribution
restriction is no longer required. When this caveat is used, the U.S. Army Crime Records
Center (USACRC) does not index identified subjects in the DCII until notified by field
elements. CID Regulation 195-1 warns commanders and supervisors, however, to
judiciously use this feature because it “conflicts with the very existence of the DCII.”
USACIDC policy does not explain in detail the circumstances that would dictate use of
the restrictive caveat; however, interviews disclosed operational security to be the
primary factor.

                                        Recommendations
                Recommendation 4. The Office of the Deputy Assistant Inspector
General for Criminal Investigative Policy and Oversight amend DoD Instruction 5505.7
to allow for delayed indexing in the Defense Clearance and Investigations Index in
limited cases where such indexing may reasonably be anticipated to risk compromise of
the criminal investigation.

                      Management Comments and Evaluation Response
         The Army, Navy, Air Force, and DCIS concurred with this recommendation. We
will so amend DoD Instruction 5505.7. Estimated completion date for distribution of
revised Instruction for comments is December 31, 2000, following completion of Phase II
of this evaluation.

               Recommendation 5. The Commanders of the United States Army
Criminal Investigation Command and the Air Force Office of Special Investigations, and
the Director, Naval Criminal Investigative Service, institute written policy authorizing
delays in indexing. The policy must identify specific acceptable reasons for delays and
procedures for the subsequent indexing of subjects once circumstances warranting a
delay no longer exist.

                      Management Comments and Evaluation Response
        The Army, Navy, and Air Force concurred with this recommendation. The Air
Force responded that AFOSI did publish such policy in a change to AFOSI Instruction
71-107, issued on December 30, 1999. We reviewed the Instruction and find that it
satisfies the requirement identified in this recommendation. We ask that the Commander,

16
     CID Regulation 195-1, para. 8-2.


                                                                                       12
USACIDC, and the Director, NCIS, advise us of the specific action taken concerning this
recommendation and the estimated/actual completion date.

                Recommendation 6. The Commander, Air Force Office of Special
Investigations, take action to ensure that when AFOSI personnel are subjects of criminal
investigations, they are indexed in the Defense Clearance and Investigations Index as any
other subject of a criminal investigation in accordance with DoD Instruction 5505.7.

                       Management Comments and Evaluation Response
        The Air Force concurred with this recommendation. We ask that the Commander,
AFOSI, advise us of the specific action to be taken concerning this recommendation and
the estimated/actual completion date.


H. Basis for removing names from the DCII
        When issued in May 1992, DoD Instruction 5505.7 allowed for the removal from
the DCII of the names of subjects in a criminal investigation only in cases of mistaken
identity. Removal was expressly prohibited even if based on a later finding that the
person was found not to have committed the offense or that the offense did not occur
(consistent with the fact that the DCII is an index of investigations, not an index of
criminals or offenses). Following a request from the USACIDC, on January 7, 1999, the
OIG, DoD, issued a memorandum clarifying the Instruction with respect to the removal
of subject names. The memorandum stated that, in addition to cases of mistaken identity,
names could be removed from the DCII if criminal investigative agency management
later determined that the Instruction’s credible information standard for titling, with
respect to the subject of a particular case, was not met at the time indexing occurred.
This memorandum authorized removal for mistaken identity as well as errors in applying
the credible information standard stated in the titling policy.

        During this evaluation, the DCIOs were asked to provide various data pertaining
to external requests for the removal of subject data from the DCII (e.g., from the subject
of an investigation wanting his own data expunged). We analyzed the data for three
purposes: to determine the reasons why subjects believed their case was treated
improperly or unfairly; to assess the DCIO procedures for responding to such requests;
and to determine if the criteria in the Instruction were used as a basis for subsequent
expungement actions. For the period under review, fiscal years 1996 through 1998, both
NCIS and DCIS reported that they received no requests from titled subjects for correction
or expungement. AFOSI reported 5 requests, and USACIDC reported 83. It is important
to note that while this report focuses solely on titling and indexing, the requests AFOSI
and USACIDC received were processed as requests under the correction of records
provisions in the Privacy Act.17 Investigative files and DCII data constitute individual
records in a system of records maintained by each investigative agency. Some of the

17
     Or similar provisions if exempt from Privacy Act


                                                                                       13
requests specifically mentioned titling and indexing (e.g., requested removal of a name
from the title block of a report or from the DCII), while others requested action on all
records pertaining to the requestor, which, was interpreted to include titling and indexing.

        AFOSI expungement requests. Requests made to AFOSI are described in
Table 1. As can be seen, neither titling nor indexing was the focus of the first request.
The second request was without merit; all AFOSI actions in indexing were proper. The
third request came as a result of an NCIC fingerprint record; the DCII record was merely
incidental. However, that request also lacked merit because all investigative actions were
proper. Only in the fourth and fifth requests were titling or indexing the primary focus,
and in each, resolution came through proper application of the DoD policy.




                                                                                         14
                    Requests for Expungement/Amendment of Records - AFOSI

       Action Requested                               Reason Cited in Request
                                  Action Taken and Rationale Given

       1. Destroy all records pertaining to case         Age of records exceeded file retention
                                                period
      Records, to include DCII entries, were expunged since the file retention period was
exceeded. Retention period at the time was 15 years; the records in question were 18 years old.

       2. Expunge all records                         Time has passed and subject is now a
                                               good performer
       Request was denied. Quoted credible information standard as basis for indexing in DCII.

       3. Expunge all records                             Applying for federal job and records
                                                   check disclosed an arrest. Subject stated he
                                                   was given only nonjudicial punishment.
        Request was denied. This request focused more directly on subject’s record in the NCIC
based on submission of a fingerprint card with criminal history data. Reported action cited that
fingerprints and associated data were properly obtained and recorded, and defended the DCII
entry stating that the credible information standard was met.

       4. Expunge DCII record                             Spouse applying for family day care
                                                  license and was informed DCII reflected
                                                  "negative data”
        Request granted. AFOSI judge advocate opined the DoD credible information standard
for indexing was never met, and therefore the subject should not have been indexed. NOTE:
This is also a good example of a situation where misuse of the DCII database was corrected.
There is no “negative data” in the DCII criminal investigative records since dispositions are not
reflected.

       5. Expunge DCII record                             Spouse applying for family day care
                                                  license and was informed DCII reflected
                                                  separate “drug related offenses” on the military
                                                  member and the spouse.
        Request was partially granted. AFOSI determined the “drug related offense” pertaining
to the military member was merely an uncorroborated allegation retained as criminal intelligence
and never should have been indexed since the DoD credible information standard was not met.
Case against the day care applicant was a substantive investigation, however, and DCII was not
expunged with respect to that file.
                                            Table 1




                                                                                        15
         USACIDC expungement requests. USACIDC provided a listing of 83 cases
during our three-year review period where outside requesters, most frequently the
subjects of investigations, requested amendments that may have affected titling or
indexing in some fashion (Table 2). Many of the requests mentioned titling specifically,
while others asked generally for the expungement or amendment of a criminal
investigative record. In those cases, the USACIDC reviewed titling and indexing
decisions as well as the substance of the identified investigative report. While the
Department of the Army exempts USACIDC reports from the amendment provisions of
the Privacy Act, Army Regulation 195-2 contains procedures that accomplish the same
purpose. Amendment requests will be honored if the requester provides new, relevant,
and material facts.18 Of the 83 requests, only 5 resulted in changes to titling or indexing
entries. Of those five, three were directed by the Army Board for the Correction of
Military Records (ABCMR), one was directed by the District of Columbia Superior
Court, and one was changed by USACIDC Headquarters subsequent to a request from a
titled subject (subject was titled before the Instruction existed). The majority of requests,
48, were denied. Of the remaining 30 requests, 15 resulted in modifications to report
findings rather than to titling or indexing. Each decision made by USACIDC pertaining
to titling or indexing was in accordance with the Instruction.


                                       USACIDC Amendment Requests
            Qty              Disposition

             48              Denied. Request failed to provide requisite new, relevant, and material
                     facts
             15             Partial change of investigative findings
              8             Administratively closed after requester failed to provide additional
                     information
              6             Referred to military police (did not involve a USACIDC case)
              5             Change titling/indexing
                               3 – Directed by ABCMR
                               1 – Directed by DC Superior Court
                               1 – Changed per request by individual
                                    (pre-DoDI 5505.7 titling action)
              1             Pending at time of CIPO evaluation

             83              Total
                                                     Table 2




18
     AR 195-2, para. 4.4b


                                                                                             16
I. Evaluation results pertinent to DAB findings and recommendations
         Of the four DAB recommendations dealing with the “DCII system,” three concern
matters beyond the scope of this review (DAB Recommendations 15a, 15c, and 15d; see
Appendix E). We did note during this review that DSS has instituted procedures to
restrict access to data involving open criminal cases indexed in the DCII. Access is
limited to the DCIOs and the CAFs, thus answering DAB recommendation 15a.

        DAB Recommendation 15b, which urged the implementation of appeal
procedures for titling and indexing decisions, deals directly with the subject matter of this
evaluation. We found that the Privacy Act, or similar departmental and agency policy,
applies to each of the DCIOs and carries with it procedures for individuals to request
amendment of records they believe to be inaccurate.19 Service members have added
protections provided by their respective boards for correction of military records. We
reviewed each of the amendment requests filed during FYs 1996-1998, and found that the
procedures worked well (Part II, Section G. above). We conclude that the processes
already in place anticipate and satisfy the DAB recommendation.


J. Evaluation results pertinent to NAPA findings and recommendations
         NAPA made three recommendations with respect to titling, which are listed at
Appendix F. The NAPA report did not include empirical information upon which its
recommendations were based, and during our review we found no foundation for these
recommendations as they relate to titling and indexing by the DCIOs. Since additional
titling and indexing matters regarding other DoD criminal investigative and law
enforcement organizations are to be reviewed during Phase II of this evaluation, we
recommend no action be taken to adopt the NAPA recommendations at this time.

        Phase I of this evaluation found no evidence to support the contention that the
credible information standard is misunderstood, or that titling or indexing subjects of
investigations under such a standard have, in and of themselves, harmed the subjects of
investigations in any way. Similarly, the present policy of titling and indexing at the start
of an investigation has not been found to produce unfair results. On the contrary,
accomplishing such actions at the beginning of an investigation has benefited the DoD
investigative and security community through increased awareness of mutually




19
   The Privacy Act, as implemented by DoD and Air Force policy, applies in the case of the DCIS and
AFOSI respectively. Although USACIDC and NCIS records have been exempted from the amendment
procedures of the Privacy Act, NCIS policy is that the exemption will be exercised only when it will
“jeopardize governmental interest.” The NCIS Manual then outlines procedures for individuals to request
amendments. Army Regulation 195-2 has similar procedures with respect to USACIDC investigative files.


                                                                                                    17
significant case files. Further, the practice lessens the potential of multiple investigations
of the same matter or person.20

        When representatives of USACIDC headquarters were interviewed, they voiced
concern that the language in DoD Instruction 5505.7 appeared not to allow for the
removal of DCII entries made in error, but only in cases of mistaken identity. While the
other investigative organizations did not similarly interpret the Instruction, we concluded
that the Instruction’s language should be clarified. It was never the intent of the
Instruction to prohibit the correction of entries obviously made in error. At the request of
the USACIDC, the Deputy Assistant Inspector General, CIPO, issued a January 7, 1999,
memorandum (Appendix B) clarifying the Instruction, stating that names could in fact be
removed from the DCII if it were later discovered that indexing criteria (e.g., existence of
credible information) were not properly applied at the time of indexing.

        We conclude that there is no systemic problem with respect to the procedures for
amending titling and indexing records. The Privacy Act provides the vehicle for such
amendments, and where exemptions have been granted, similar procedures have been
implemented elsewhere. Neither DCIS nor NCIS experienced any requests during the
period under review, and AFOSI experienced only five. USACIDC experienced 83
requests; however, only five resulted in changes to titling or indexing records. In both
AFOSI and USACIDC, Privacy Act or similar procedures worked well. As an added
safeguard, military members may use the processes afforded by the Service boards for
correction of military records, as we witnessed in the three Army cases.




         20
            As an example we cite the instance of a senior officer subjected to the initiation of three
investigations of the same matter by three different investigative organizations prior to the existence of the
current Instruction.




                                                                                                            18
Appendix A. DoD Instruction 5505.7




                                     A-1
A-2
A-3
A-4
A-5
Appendix B. IG, DoD, Clarifying Memorandum




                                             B-1
B-2
Appendix C. IG, DoD, Review – February 1987
        The IG, DoD, issued its report, number 86FRR005, entitled “Review of Operating
Policies and Procedures of the Defense Central Index of Investigations,”21 in February,
1987. The primary findings and recommendations (shown in italics) are reported below,
accompanied by our commentary (standard type):

        1. Army should discontinue expungement of DCII entries that identify criminal
           investigations in which the allegations were proven to be unfounded or
           unsubstantiated. The report noted that the DCII is an index of all DoD
           investigations. “The fact that a particular [DCII] contributor refutes or
           otherwise determines an allegation which is the basis for opening an
           investigation is unfounded or unsubstantiated does not change the fact that it
           was a lawfully conducted investigation.” USACIDC responded that such a
           change would require rewrite of many of their policies.

        2. All DoD investigative organizations should contribute to the DCII.22 All
           report recipients concurred with the recommendation.23

        3. The DCII contributors should verify that input data are correct and complete.
           All respondents substantially concurred.

        4. The DCII should remain solely as an index of investigations and not be
           expanded to serve as a repository of investigative results. At that time, many
           DCII users wanted DCII information to be more descriptive by identifying
           types of investigations, offenses, results of investigations, and dispositions.
           Others, however, voiced concern over the proliferation of remote terminals
           and the need to protect sensitive investigative information. The final
           recommendation was to continue DCII as an index of investigations, and not a
           repository for substantive investigative information. The only exception was
           to code entries such that criminal, civil, administrative, and personnel security
           investigations could be distinguished.



21
   The DCII was originally created as the “Defense Central Index of Investigations” in February 1966. The
name was changed to “Defense Clearance and Investigations Index” circa 1990 to better reflect the actual
contents and use of the Index.
22
   The report primarily identified that the Defense Logistics Agency, Defense Nuclear Agency, Army/Air
Force Exchange Service, Air Force Security Police, and the Marine Corps Criminal Investigation Division
did not contribute criminal investigative data to the DCII. It also noted that other organizations not
indexing investigations included the Defense Intelligence Agency, and the Director for Personnel and
Security, Washington Headquarters Services, Office of the Secretary of Defense.
23
   The NSIC (Naval Security and Intelligence Command, now known as NCIS) voiced the only exception,
stating that it was not necessary for the Marine Corps Criminal Investigation Division (CID) to contribute
to the DCII because NSIC at that time reviewed Marine Corps CID and Master at Arms offense reports and
entered those that met “appropriate criteria.” The IG, DoD, responded that all investigations must be
indexed.


                                                                                                     C-1
5. Proactive or self-initiated investigative efforts should be indexed in the DCII.
   Three of five respondents did not concur with this recommendation,
   commenting that it would either be nonproductive or too costly.

6. DCII participants need to adopt uniform file retention periods for security and
   criminal investigations. A wide disparity existed among the major
   contributors to the DCII. The IG, DoD, recommendation set the criminal
   investigative file retention period at a minimum of 25 years and maximum of
   40 years, and allowed the DCII contributors to designate certain case types for
   permanent retention. A 15-year minimum period of retention was
   recommended for personnel security investigations that disclose no
   “derogatory, unfavorable, or minor derogatory information.”

7. The DCII should be expanded to establish a totally integrated central index of
   personnel security investigations. The respondents overwhelmingly supported
   this recommendation, as well as the inclusion of personnel security disposition
   data.




C-2
Appendix D. IG, DoD, Review – May 1991

        In May 1991, the IG, DoD, published its report number 91FBD013, “Review of
Titling and Indexing Procedures Utilized by the Defense Criminal Investigative
Organizations.” The review was prompted by a House Armed Services Committee
(HASC) recommendation that the military criminal investigative organizations establish a
uniform standard for titling individuals as subjects of investigations. The HASC report
recommended that the titling standard should be set as “probable cause to believe the
individual had committed the alleged offense.”

        After reviewing the policies and procedures of the DCIOs, as well as those of
other federal law enforcement agencies,24 the review report included the following
findings:

         •   Federal statutes recognize the need for Federal law enforcement and security
             agencies to maintain raw intelligence files for criminal law enforcement and
             security databases.25

         •   Adoption of a probable cause standard would result in the loss of valuable law
             enforcement information. This would harm the ability of the DoD to work
             with Federal law enforcement, security, intelligence and counterintelligence
             agencies by, in effect, censoring the data which goes [sic] into the DCII.

         •   A determination of probable cause is too high a standard for titling decisions
             listing an individual or entity as the subject of an investigation.

         •   The NIS,26 the [AF]OSI, and the DCIS, which rely on the DCII as their
             database, would each have to establish separate databases similar to the
             duplicative system used by the Army.

         •   The Army system for titling is not effective for law enforcement and
             investigative purposes.




24
    Defense Investigative Service (now the DSS), Department of the Army Deputy Chief of Staff
Intelligence – Counterintelligence Central Control Office, Federal Bureau of Investigation, Bureau of
Alcohol Tobacco and Firearms, U.S. Customs Service, Internal Revenue Service, and the U.S. Secret
Service.
25
   This statement should most likely be interpreted to mean that there is investigative value in an index that
identifies all investigative matters, over one that simply contains files for which probable cause concerning
subjects exists. The criminal investigative data in the DCII constitutes intelligence only insofar as it points
to the file of anyone who was ever the subject of a criminal investigation. Investigative findings (true
intelligence) are not contained in the DCII, nor is disposition data that would indicate innocence or guilt.
26
   Naval Investigative Service, later renamed Naval Criminal Investigative Service.


                                                                                                          D-1
The report then included the following recommended actions:

•   The IG, DoD, should establish a uniform standard for the DCIOs titling
    individuals as the subject of an investigation. This action will result in
    uniformity in the information going into the DCII, and will promote efficiency
    in the criminal investigative program.

•   The uniform standard for titling should be established through the issuance of
    a Department of Defense policy document

•   The uniform standard for all titling decisions by the IG, DoD, should be that
    all titling decisions will be based on a determination that sufficient evidence
    exists to warrant an investigation. This standard is recommended because it
    will be the most efficient and is the prevailing titling standard utilized by both
    DoD and non-DoD law enforcement agencies. Adoption of this standard will
    require revision of Army CID Regulation 195-1 and Army Regulation 195-2
    to remove the probable cause standard for titling, and prevent deletion of
    names of investigative subjects from the DCII.

This May 1991 review prompted the issuance of DoD Instruction 5505.7.




D-2
Appendix E. Summary of Defense Advisory Board Findings
and Recommendations
        On November 18, 1993, the Secretary of Defense announced the formation of the
“Advisory Board on the Investigative Capability of the Department of Defense” based on
the urgings of the Congressional Armed Services and Appropriations Committees. The
DAB studied a wide variety of issues concerning investigations in the DoD, from
organizational structure, to agent personnel matters, to investigative procedures. Among
the DAB recommendations was a call for the Secretary of Defense to establish a
permanent Board on Investigations (BOI) chaired by the IG, DoD.

         The DAB report included the following observations and recommendations that
affect titling and indexing:

        Observations:

        •   Policies for the entry of, and access to personal identities in the [DCII] system
            do not afford sufficient protection to those individuals named in the DCII.
            (I:43)27

        •   There is inadequate oversight of the Services’ use of the DCII. (I:43)

        •   “We find the current number of organizations, and thus individuals, with
            access to the DCII troubling…. We have learned that it is technically feasible
            to limit the users that have access to the criminal investigation indices in the
            DCII, while still making the other indices available. We believe this should
            be considered.” (I:45)

        •   “We are troubled…that the criminal investigative information about [titled]
            individuals may be released for administrative determinations. We believe
            that people using criminal investigative information for administrative
            determinations should have access only to information about subjects for
            whom it was determined that a preponderance of the evidence exists that the
            subject committed an offense.” (I:46)

        •   “...the absence of a mechanism for subjects to request removal of their name
            from the DCII is unfair…. It is not enough to allow a change to the system
            only in the event of a mistaken identity. Criminal investigative organizations,
            and subjects, should have the ability to address and correct mistakes.” (I:46)

        •   Only the Army has a working system in place that routinely enters police
            investigator subjects into the DCII. (I:51)


27
  References are to volume and page number of the Report of the Advisory Board on the Investigative
Capability of the Department of Defense


                                                                                               E-1
       The DAB then made the following recommendations concerning the DCII
“system”:

         Recommendations:

         •     Establish procedures for information related to open investigations. (15.a.)28

         •     Establish prompt, effective procedures for individuals to appeal titling and
               indexing decisions. (15.b.)

         •     Limit online access to criminal investigation indices. Only those
               organizations or activities with a substantial law enforcement function, those
               with national security interests, such as security clearance and adjudicative
               authority, and the Defense Investigative Service29 should have access to
               criminal investigation indices. This recommendation is imperative. If it
               cannot be accomplished, then the standard for indexing criminal investigations
               in the DCII should be preponderance of evidence. (15.c.)

         •     Establish a preponderance of the evidence standard [for the release of DCII
               criminal investigative information] for other than law enforcement or national
               security purposes. The determination should be made only after an
               investigative review and an independent legal review. The results of each
               review should be listed prominently in the report of investigation.30 (15.d.)

        Since the DAB issued its two-volume report, the BOI has been tracking progress
on report recommendations. As of March 20, 2000, only recommendations 15.b. and
15.d. of those related to titling and indexing remain open. This review determined that
appeal procedures already exist in the Privacy Act and implementing departmental policy
for the DCIS and AFOSI, in NCIS policy, and in Army and USACIDC policy.




28
   References to DAB recommendations track with recommendation numbers listed in the DAB report.
29
   Now the DSS.
30
   The report recognizes that this may result in an appearance that the record reflects a conclusion about a
subject’s guilt or innocence, but states that the DAB believes these procedures will protect more individuals
than they will harm.




         E-2
Appendix F. Summary of National Academy of Public
Administration Findings and Recommendations
        Section 1072 of the National Defense Authorization Act for Fiscal Year 1998
tasked NAPA31 to conduct a study of MCIO policies and procedures in sex crimes
investigations. In May 1998, the DoD contracted with NAPA, which studied a variety of
investigative issues including titling and indexing. NAPA noted that, “concerns have
been expressed about the misuse of titling information, and how it could unfairly harm
the military careers of some individuals.” The NAPA report stated that the following
three issues were examined:

        •    Is the standard used by the MCIOs for titling crime suspects adequate?

        •    Are the operational practices related to when individuals are titled
             appropriate?

        •    Should there be better procedures for correcting erroneous titling information?

        In the text of its report the NAPA made the following observations, among others:

        •    “...in practice, [raising the titling standard to probable cause] would not be a
             problem since criminal investigators are aware that the DCII information is
             not a compilation of detailed crime intelligence.”

        •    “few [MCIO field agents] were aware of DoD’s ‘credible information’
             standard, and fewer could define it in operational terms.”

        •    “most agents understood and used the term ‘probable cause’ and indicated that
             it should be the basis for the titling standard.”

        •    CID formerly used the probable cause standard in titling.

        •    “[Because they are required to report sensitive cases to higher officials within
             24 hours of the discovery of a crime], CID agents said they felt pressure to
             identify, and thus title, a suspect….”

        •    “Several [CID] agents said the annual field office inspection process also
             pressures them to quickly produce a suspect for any crime because this is one
             item that is examined as part of the inspection.”



31
   The National Academy of Public Administration is an independent, nonpartisan, nonprofit organization
comprised of former legislators, jurists, federal and State executives and scholars that has been contracted
to assist government and private agencies and organizations in research and problem solving. NAPA was
granted a congressional charter in 1984.


                                                                                                       F-1
       •     [OSI and NCIS] agents advised they did not feel pressure to title a subject
             until there was “probable cause.”

       •     The decision to place a suspect’s name in a FBI report is made by the case
             agent when he believes there is “probable cause to determine the identity of a
             crime suspect…. FBI agents did not recognize the credible information
             standard as it is used by DoD.”

       •     “Federal, state, and local law enforcement agencies indicate there is no single
             civilian law enforcement “titling” standard, and that the ‘credible information’
             standard is not used. Also, common terminology does not appear to apply to
             the act of placing a person’s name in an investigative report… The most
             commonly used term to describe the decision point which precedes a law
             enforcement act is ‘probable cause’.”

       •     “Although DoD permits the removal of a subject’s name from the DCII in
             cases of mistaken identity, it does not consider cases when it is ultimately
             determined that a crime never occurred.”

       •     Entering names at early investigative stages may not account for the later
             discovery of errors or new information that the alleged crimes did not occur.
             Consequently, there could be improper titling of persons or entities as “crime
             suspects.” The “mistaken identity” rule alone cannot remove the names of
             such persons from the DCII. Thus, they can remain improperly subjected to
             scrutiny, vulnerable to unwarranted harm to their careers or security status.

       Following are the NAPA findings and recommendations with respect to titling
and indexing:

       •     DoD amend the DoD Instruction 5505.7 titling standard, replacing the term
             “credible information” with the term “probable cause,” as found in Black[‘s
             Law Dictionary]. Titling should be entered into the DCII at the close of each
             MCIO investigation.

       •     DoD amend standards and procedures for the removal of titling information
             from the DCII to permit removal of a titled person’s name by the head of the
             submitting [DCIO] when there is reason to believe that the titling is in error or
             does not serve the interests of justice.

       •     DoD establish a common [DCIO] procedure for reviewing applications for
             untitling, and maintain records of the annual number of applications, their
             source, and the reasons given for each request. From these records, determine
             whether there is a systemic problem with the titling process and take
             corrective action where necessary.




       F-2
Appendix G. Departmental and Agency Policies Reviewed


Department of Defense
DoD Instruction 5505.7, “Titling and Indexing Subjects of Criminal Investigations in the
      Department of Defense,” May 14, 1992
Defense Criminal Investigative Service Special Agent’s Manual


Army
Army Regulation 190-45, Interim Change No. I01, “Law Enforcement Reporting,”
      3 September 1993
Army Regulation 195-2, Interim Change No. I01, “Criminal Investigation Activities,”
      27 September 1993
CID Regulation 195-1, “Criminal Investigation Operational Procedures,” CID Intranet,
      build date: 1 Jan 2000

Navy
Naval Criminal Investigative Service Online Manual, NCIS-1, Version 3.10, compiled
       26 July 1999

Air Force
Air Force Instruction 37-132, “Air Force Privacy Act Program,” 11 March 1994
Air Force Instruction 71-101, Volume 1, “Criminal Investigations,” 1 August 1997
AFOSI Instruction 71-105, “Investigations,” 9 March 1999
AFOSI Instruction 71-107, Interim Change 99-4, “Processing Investigative Matters,”
       23 September 1998
AFOSI Instruction 71-119, “Counterintelligence Briefings, Investigations, Sources, and
       Related Matters,” 26 November 1999
AFOSI Manual 71-121, “Report Writing,” 17 May 1999




                                                                                     G-1
Appendix H. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)
Assistant Secretary of Defense (Command, Control, Communications
   and Intelligence)
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Deputy Under Secretary of Defense (Installations)
General Counsel, Department of Defense
Office of the Inspector General
General Counsel, Defense Logistics Agency
Deputy General Counsel (Inspector General)*
Director, Defense Intelligence Agency
Inspector General, National Security Agency
Director, Washington Headquarters Service
Director, Defense Criminal Investigative Service*
Director, Defense Security Service*
Chief, Defense Protective Service
Office of Congressional Liaison

Department of the Army
Inspector General, Department of the Army
General Counsel, Department of the Army*
Auditor General, Department of the Army*
U.S. Army Criminal Investigation Command*
Deputy Chief of Staff for Operations and Plans, Security, Force Protection and Law
   Enforcement Division*

Department of the Navy
Naval Inspector General*
General Counsel, Department of the Navy
Director, Naval Criminal Investigative Service*
Counsel for the Commandant (Marine Corps)
Inspector General, U.S. Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management & Comptroller)*
General Counsel, Department of the Air Force
Inspector General, Department of the Air Force*
Commander, Air Force Office of Special Investigations*
Director of Security Forces*



       I-1
Non-Defense Federal Organizations
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




*Recipient of draft report




                                                                                    I-2
Appendix I. Management Comments

                       Army




    I-1
Navy




       I-2
I-3
Air Force




            I-4
I-5
I-6
      Defense Criminal Investigative Service




I-7
                             Evaluation Team Members

Deputy Assistant Inspector General for Criminal Investigative Policy and Oversight, Office of
the Assistant Inspector General for Investigations, Office of the Inspector General, Department
of Defense.

       Frank G. Albright
       Karen E. Cropper
       Laura J. McCarthy
       Barbara J. McVay
